NO. 20-7834
IN THE SUPREME COURT OF THE UNITED STATES
STEVEN COOPER,
Petitioner,
v.

STATE OF FLORIDA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FIRST DISTRICT COURT OF APPEAL

BRIEF IN OPPOSITION
TO PETITION FOR A WRIT OF CERTIORARI

Certificate of Service

I, Carolyn M. Snurkowski, a member of the Bar of this Court, hereby certify
that on this Lbs of August 2021, a copy of the Respondent’s Brief in Opposition
in the above entitled case was furnished by United States mail, postage prepaid, to

Steven Cooper, Pro Se, P.O. Box 18617, Panama City Beach, Florida 32417.

13
Respectfully submitted,
ASHLEY MOODY
ATTORNEY GENERAL

PV abe [.

CAROLYN M. SNURKOWSKI
Associate Deputy Attorney General

Florida Bar No. 158541
Counsel of Record

Trisha Meggs Pate
Tallahassee Bureau Chief
Criminal Appeals

Office of the Attorney General

PL-01, The Capitol

Tallahassee, FL 32399-1050
Carolyn.Snurkowski@myfloridalegal.com
crimapptlh@myfloridalegal.com

(850) 414-3300

COUNSEL FOR RESPONDENT

14
